HHS/OIG-Audit--"Review of the Learn, Earn and Prosper (LEAP) Contract Administered by the Mississippi Department of Human Services, (A-04-94-00078)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Learn, Earn and Prosper (LEAP) Contract Administered by the Mississippi Department of Human Services," (A-04-94-00078)
February 2, 1996
Complete
Text of Report is available in PDF format (3.05 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
As a major component of Mississippi's Job Opportunity and Basic Skills (JOBS) program, the Learn, Earn and Prosper (LEAP)
program is designed to help participants increase their literacy, earn a High School Equivalency Diploma (GED), and prepare
for employment.
The objectives of our review were to determine if: (1) LEAP established and met contract performance goals and (2) costs
claimed for the LEAP contract were allowable expenditures.
The Mississippi Department of Human Services (MDHS) awarded a contract to the University of Mississippi to operate the
LEAP program. The contract scope of services contained several duties and responsibilities, but did not include criteria
to measure outcomes and hold the University accountable under the contract.
Although the contract did not define performance indicators or contain performance measures, we were able to measure the
outcomes of two indicators - participants' rate of attendance and GEDs obtained.
Between February 1993 and December 1994, LEAP served about 4,300 JOBS participants at a cost of $15.3 million. The University
calculated an average daily attendance of 53 percent of enrollment and 377 of the 720 LEAP participants who sat for the
GED exam passed.
In our limited review of LEAP expenditures, we found that Mississippi reported $747,031 in LEAP contract expenditures
that we believe do not meet Federal reimbursement requirements. We also noted $1,045,097 in expenditures warranting further
review by the State Auditors, who have overall responsibility for this grantee.
We recommend the MDHS include performance indicators and measures in future Department of Health and Human Services (HHS)
funded contracts. We also recommend MDHS refund the Federal Government $665,768 for the Federal share of unallowable costs,
re-evaluate the reasonableness of $1,045,097 in expenditures, and review the contract for additional unallowable costs.
The MDHS agreed with our recommendation to evaluate the LEAP contract to determine what changes are needed, including
performance indicators and measures in future HHS funded contracts. However, the MDHS disagreed with the facts and conclusions
leading to our program recommendation. In regard to our financial recommendations, MDHS disagreed.